No.
3fn tlje Supreme Court of tfje Mmtetr States

CHRISTOPHER HADSELL,
Petitioner,
—v—
BARRY BASKIN, et al.,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 7,544 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 27, 2020

Christopher Hadsell, Petitioner

